November 28, 2003

MEMORANDUM FOR:              EMILY STOVER DeROCCO
                             Assistant Secretary for
                              Employment and Training



FROM:                        ELLIOT P. LEWIS
                             Assistant Inspector General
                              for Audit

SUBJECT:                     Complaint Involving the Whitney Young Job Corps Center,
                             Simpsonville, Kentucky
                             Report Number 04-04-007-03-370

The Office of Inspector General (OIG) has evaluated a complaint made against Education
Management Corporation (EMC) through the OIG Hotline (Complaint Number 3C-03-
370-0031). A former Center staff member made the complaint, alleging mismanagement
and misappropriation of Job Corps funds by EMC employees. EMC has been the
managing contractor of the Whitney Young Job Corps Center (Center), in Simpsonville,
Kentucky, since October 2000. The time period covered by the complaint was
July 1, 2001 to July 31, 2003.

Our objective was to determine if allegations discussed in the complaint were
substantiated. We concluded that with the exception of an allegation involving lost
property at the Center, the complainant’s charges were not substantiated. Because the
Employment and Training Administration (ETA) is taking appropriate corrective action
on the property issue, we do not believe recommendations are required or that additional
involvement by the OIG is necessary.

BACKGROUND

Job Corps is a national program that provides employment and training, primarily in a
residential setting, to disadvantaged youth between the ages of 16 to 24. The U. S.
Department of Labor (DOL) administers Job Corps. It was established by the Economic
Opportunity Act of 1964, and is currently authorized under the Workforce Investment
Act of 1998, Part 670, Title I. The objective of Job Corps is “to provide young people
with the skills they need to obtain and hold a job, enter the Armed Forces, or enroll in
advanced training or further education.”

Effective October 1, 2000, EMC succeeded the Vinnell Corporation as the Center’s
operator. Considered a mid-size center, the Center has the capacity to accommodate
approximately 400 residential students. The initial contract amount was $15.2 million for
a two-year period, with three one- year options. According to EMC officials, Whitney
Young is the first Job Corps center for which it has been the primary contractor. In the
past, EMC provided services to other Job Corps centers as a subcontractor.

On May 29, 2002, a former employee made several allegations against officials at the
Center and EMC. The Complaint alleged:

   A. Student incentive funds may have been misused;
   B. Incent ive payments were made after students terminated from the program or
      while on unpaid leave;
   C. Questionable downsizing of 30 employees;
   D. Loss of $170,000 of property;
   E. Furniture and equipment were not purchased as expected;
   F. Excessive travel expenses were incurred for the acting vocational supervisor’s
      stay in Louisville, KY;
   G. Some students were forced to leave the program before completion in order to
      bring in other students;
   H. Job Corps funds were used to impress a local congressman;
   I. Inappropriate bonuses were paid to management but employees did not receive
      raises; and
   J. EMC paid off someone in DOL.

OBJECTIVE

Our evaluation objective was to determine if the allegations discussed in the complaint
against the EMC employees were substantiated.

SCOPE AND METHODOLOGY

Our evaluation focused on the allegations against the Center and EMC. We examined the
Center’s financial and expense reports, property lists, student status reports and DOL
contracts/grants, for compliance with applicable laws and regulations from July 1, 2001
through July 31, 2003. We interviewed officials at the Center and EMC for relevant
information. We also interviewed the complainant to gather additional information and to
clarify information previously provided. We selected a judgmental sample of 11 of 82
former Center employees’ files and reviewed their contents to determine whether there
were any unusual circumstances related to their terminations from the Center. We also
reviewed files of six students identified as receiving incentive pay after leaving the
program or while on unpaid leave. We examined controls over financial disbursements
and property. We conducted fieldwork from July 29, 2003 through August 15, 2003.

We conducted our evaluation in accordance with the Quality Standards for Inspections
published by the President’s Council for Integrity and Efficiency.




                                           - 2-
RESULTS OF EVALUATION

We found the allegations were not substantiated, with the exception of one allegation
concerning missing property. However, as discussed later in this report, ETA has already
addressed the property issue and we do not believe further OIG action is necessary.

During our initial interview, the complainant’s recollections were vague on several of the
allegations. The complainant agreed to research personal files and contact us with
additional information. The complainant was given the opportunity to provide us this
additional information, but repeated attempts to contact the complainant were
unsuccessful and our calls were not returned.

Each allegation we reviewed and our conclusions are discussed below:

   A. Student Incentive Funds May Have Been Misused: The complaint alleged that an
      incentive trip was not allowed. The complainant was upset that the Center’s
      management had not approved a trip to an amusement park, and alleged funds
      may have been misappropriated by EMC.

       According to the Center Director, a variety of student incentives were allowed,
       such as funds given to students for trips to restaurants and shopping at local
       retailers; however, other incentives were not allowed due to lack of resources and
       other priorities. The complainant alleged that money might not have been
       available for use as incentives because unspecified misappropriation by the
       Center’s management may have limited the funds available.

       The complainant could not provide further specifics, and our work found no
       evidence that misappropriation of incentive funds had occurred. Therefore, the
       allegation is not substantiated.

   B. Incentive Payments Were Made After Students Terminated From The Program or
      While on Unpaid Leave : The complaint alleged that incentive payments were
      made to students after leaving the program or while on unpaid leave. Students
      who leave the Center are generally owed some monies as part of their termination
      package. The Data Center processes all terminated student payments and will
      issue a check, which is mailed to the student. Students at the Center must show a
      valid Whitney Young ID and sign to receive cash payments. When students are
      off Center (AWOL-absence without leave or on unpaid leave), they do not receive
      payment.

       We reviewed the files of six students the complainant identified as receiving
       incentive pay after leaving the program or while on unpaid leave. Based on our
       review of student files and other financial records, none of these students received
       any incentive payments to which they were not entitled. Therefore, the allegation
       is not substantiated.




                                           - 3-
C. Questionable Downsizing of 30 Employees: The complaint states that since EMC
   took over, the Center lost over 30 employees for no apparent reason. According
   to EMC officials, all of the Center’s employees were placed on a 6- month
   probationary period when EMC took over operation of the Center on
   October 1, 2000. Employees were evaluated twice during the initial 6-month
   period. Employees who failed to meet their performance standards were
   terminated, while other employees chose to leave during the probationary period.
   EMC Standard Operating Procedures state that employees are free to resign at any
   time, and the company reserves the right to terminate employment at any time for
   any reason. Even the complainant stated that some employees chose to resign in
   lieu of being terminated by EMC. We judgmentally selected and reviewed 11 of
   82 files of former Center employees and found no evidence that EMC improperly
   terminated employees or the employees resigned due to unusual circumstances.
   Therefore, the allegation is not substantiated.

   In addition, when EMC assumed control of the Center, it ranked 109th of 115,
   compared to other Job Corps centers around the United States, on established
   performance measures. According to the Center Director and another EMC
   official, changes in personnel were necessary to improve the Center’s overall
   ranking. The official stated that getting better results was their primary objective
   at the time. According to Job Corps “Center Report Card by Rank (OMS-10R),”
   the Whitney Young center went from the low ranking of 109th in program year
   (PY) 2000 to 45th in PY 2002.

D. Loss of $170,000 of Property: The complaint alleged that EMC lost $170,000 of
   property and has tried to make the staff sign forms indicating they were
   responsible for the losses. According to the complainant, a memorandum was
   written by Center officials alleging that $170,000 of property was missing.
   However, the complainant was not able to provide us with a copy of the
   memorandum, nor did we find a copy of the memorandum at the Center. Based
   on interviews and review of relevant material, we found the Center’s staff did not
   follow inventory control protocol during the transition from the previous center
   operator to EMC. Because there was a shortage in property management
   personnel, many properties were transferred without proper documentation.
   Properties that were no longer used were not secured and new property was given
   to staff without documentation in the Electronic Property Management System
   (EPMS).

   Prior to our fieldwork, ETA found that 270 items of Government owned property,
   valued at $80,154, were missing. ETA completed a separate review of property in
   October 2002. EMC was granted “relief of accountability” for 147 items valued
   at $49,304, in February 2003, by the DOL Contracting Officer. These items were
   purchased in 1996 and 1997 and were considered to be in scrap condition or
   excess. EMC was held liable for the remaining 123 items with an acquisition
   value of $30,850.




                                        - 4-
   Under the agreement, EMC was required to purchase replacement items for the
   missing property. ETA officials provided us an inventory of items EMC
   purchased as replacements. ETA agreed to the list and on
   September 26, 2003, conducted an on-site visit to confirm the items had been
   purchased and were in the Center’s inventory. The ETA Contracting Officer
   expects to close the issue soon.

   Regarding property control weaknesses, ETA reported a monitoring visit was
   conducted in June 2003. The monitoring report described a ”vast improvement”
   in property accountability since the last regional assessment in October 2002.

   Concerning the allegation that staff were pressured into signing statements
   admitting responsibility for the lost property, none of the staff we interviewed
   who were present during PY 2001 and PY 2002 recalled being forced to sign for
   lost inventory.

   Since ETA has already addressed the property issues and we believe their review
   of the issue and the corrective action they are taking are adequate, no further OIG
   action is planned.

E. Furniture and Equipment Were Not Purchased As Expected: The complaint
   alleged the Center’s staff was asked to a make a list of furniture and equipment
   needed to support their programs. According to the complainant, although funds
   were available, Center staffers did not receive the furniture or equipment they had
   expected. According to an EMC official, all staff members are asked each year to
   provide a “wish list” of items they need or would like to have. The EMC official
   emphasized that this is only a “wish list” and is subject to the availability of funds
   and other priorities.

   We reviewed property records and determined EMC made several purchases of
   property and equipment. In fact, many purchased items were those requested by
   the complainant, although they were purchased in a subsequent period.

F. Excessive Travel Expenses Were Incurred for the Acting Vocational Supervisor’s
   Stay in Louisville, Kentucky: The Complainant alleged that EMC incurred
   excessive cost for the Acting Vocational Supervisor’s travel expenses in
   Louisville, Kentucky. The Complainant believed that Center funds were used to
   pay for the cost of travel.

   Travel expenses related to the trips were $7,976. We found the Acting Supervisor
   is a corporate employee who temporarily stayed in Louisville while serving in that
   capacity. According to EMC officials, the Acting Supervisor stayed at EMC’s
   corporate apartment during this period and the corporate credit card was used to
   pay for other incidental travel expenses. EMC officials stated that corporate
   travel costs related to technical support or even acting in a temporary capacity
   were classified as “unrecoverable costs” which are absorbed by the corporation.



                                         - 5-
   We reviewed EMC’s expenditure reports related to the travel. In addition, we
   obtained a signed certification from EMC’s Vice President of Fina nce and
   Administration that the expenses related to the trips were charged to corporate
   expenses, and not directly or indirectly to the Job Corps Center accounts. The
   individual was already on travel orders at the Center to provide technical support
   and was later given the position of Acting Vocational Supervisor. Consequently,
   this allegation is not substantiated.

G. Some Students Were Forced to Leave the Program Before Completion In Order to
   Bring In Other Students: The complaint alleged that students were pushed
   through the system before completing the vocational program so that management
   could bring in other students. According to the Center Director (subsequent to the
   complaint), administrators periodically terminate students prior to completing the
   program because of disciplinary problems.

   The Center’s “Termination List” contains 679 students who were terminated from
   the program between June 1, 2001 and August 15, 2003. Of that number, 651
   students graduated and 28 (4 percent) students failed to complete the vocational
   requirements, due to personal or disciplinary reasons.

   Our review of 14 files of students (names obtained from the complainant) who
   were terminated from the Center showed only 2 students were terminated for
   disciplinary reasons and did not complete the program. Nine of the 14 students
   had jobs with income ranging from $6.00 to $8.25 per hour. Five of the 14
   students had no income reported, but had occupation titles and GED or high
   school diplomas. We found no evidence to indicate students were forced to leave
   the Center for other than disciplinary reasons before completing the program.
   Therefore, the allegation is not substantiated.

H. Job Corps Funds Were Used to Impress a Local Congressman: The complaint
   alleged that the Center spent Job Corps funds to impress a local Congressman
   when the funds could have been used for incentives. On May 29, 2002, the
   Center and EMC sponsored a “Round Table Partnership Meeting” with a host of
   local community leaders. Based on the age nda, the event’s primary purpose was
   a presentation of the Center’s accomplishments.

   According to the Center Director, the Center is allowed to sponsor or host
   community outreach events. The contract between EMC and DOL prohibits
   center funds to be used for Religious and Political Activity, but it does allow for
   Community Relationships and Public Education. The contract also requires the
   contractor to “establish a community relations program . . . [to] promote positive
   public awareness about the Job Corps program and will ensure that the center is
   an active partner with the local community and the State’s workforce investment
   system.”




                                        - 6-
   Based on the agenda, the event met the definition of community relations and
   public education. The event lasted about 4 hours (11am to 3pm) with only 15
   minutes set aside for the Congressman to receive an “Honorary Award.” Also,
   according to an EMC official, other community leaders received similar awards.

   According to the Center Director and EMC officials, the cost of the event was
   shared by EMC and the Center, with most of the cost absorbed by EMC.

   We also contacted the ETA’s Project Manager for the Whitney Young Job Corps
   Center and asked if ETA considered such events allowable, under the contract.
   According to the Project Manager, such events are allowable and are encouraged.
   Consequently, the allegation is not substantiated.

I. Inappropriate Bonuses Were Paid to Management but Employees Did Not
   Receive Raises: The complaint alleged that $5,000 to $10,000 bonuses were paid
   to management. Based on information we obtained, a total of $5,000 was paid in
   bonuses to eight employees at the Center. Of the eight, three were management
   and the other five were staff employees. The amounts of the individual bonuses
   ranged from $500 to $1,000. Based on our review, the bonuses do not appear to
   be inappropriate.

   The complainant alleged that staff members did not receive raises. An EMC
   official told us that it has been the company’s policy for individual raises to be
   based on performance. According to EMC’s records, several employees,
   including those at the Center, received a raise during EMC’s first year as the
   Center’s contractor. These individuals included both management and staff
   employees. Therefore, the allegation is unsubstantiated.

J. EMC Paid Off Someone in DOL: The complaint alleged that there were
   allegations the President of EMC paid off someone in DOL, and there was a
   write-up in the newspaper about it. When we asked for additional information
   related to this allegation, the complainant could not recall where this particular
   allegation originated. However, the complainant stated that the allegation was
   supposed to have been reported in the Louisville Courier Journal.

   We interviewed contacts at the Courier Journal and the Shelbyville, Kentucky
   Sentinel-News (another local newspaper) who assisted us by researching their
   archives for any topics related to EMC and DOL. Their search found no
   information about an alleged payoff to DOL employees. We did not find credible
   information to continue our inquiry into this allegation. Therefore, this allegation
   is not substantiated.




                                        - 7-
CONCLUSION

With the exception of the property issue that had been addressed by ETA prior to our
fieldwork, information we reviewed did not substantiate the allegations made by the
complainant. Based on evaluation of available information, further OIG action or
recommendations are not warranted.




                                       - 8-
